<html>
<title> - HOW INNOVATIVE EDUCATION SYSTEMS BETTER PREPARE STUDENTS TO ENTER THE WORKFORCE (PART 1)</title>
<body><pre>[Senate Hearing 114-340]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-340

                    HOW INNOVATIVE EDUCATION SYSTEMS
                        BETTER PREPARE STUDENTS
                    TO ENTER THE WORKFORCE (PART 1)

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2015

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
97-434 PDF                  WASHINGTON : 2016                     
         
        
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  
        
       
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
                 Ann Jacobs, Democratic Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     1

                               Witnesses

Statement of John Fleming, U.S. Representative from Louisiana....     5
Statement of Alvin Bargas, President, Pelican Chapter, Associated 
  Builders and Contractors.......................................     7
Statement of Sandra Partain, Dean of Technology, Engineering, and 
  Math, Bossier Parish Community College.........................    15
Statement of David Helveston, Vice President for Workforce, 
  Career and Technical Education, Louisiana Community and 
  Technical College System.......................................    24
Statement of Gayle Flowers, Director of Career, Adult, and 
  Alternative Education, Caddo Parish School Board...............    28

                          Alphabetical Listing

Bargas, Alvin
    Testimony....................................................     7
    Prepared statement...........................................     9
Fleming, John
    Testimony....................................................     5
Flowers, Gayle
    Testimony....................................................    28
    Prepared statement...........................................    31
Helveston, David
    Testimony....................................................    24
    Prepared statement...........................................    26
Partain, Sandra
    Testimony....................................................    15
    Prepared statement...........................................    18
Vitter, Hon. David
    Opening statement............................................     1
    Prepared statement...........................................     3
    
    

 
                    HOW INNOVATIVE EDUCATION SYSTEMS
        BETTER PREPARE STUDENTS TO ENTER THE WORKFORCE (PART 1)

                              ----------                              


                      THURSDAY, FEBRUARY 19, 2015

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Shreveport, LA.
    The Committee met, pursuant to notice, at 11:30 a.m.,in the 
Louisiana State Exhibit Museum, 3015 Greenwood Rd., Hon. David 
Vitter, Chairman of the Committee, presiding.
    Present: Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. Well, again, good morning, everybody, and 
welcome to our Small Business Committee field hearing and Town 
Hall Meeting. I'm really glad all of you could join us. I'm 
really glad Congressman John Fleming could join me and co-host 
this event.
    Thank you, John.
    Why don't we all get started in the right frame of mind and 
the right frame of heart by standing, if you can, for a prayer, 
and please remain standing. Immediately following the prayer, 
we'll have the Pledge of Allegiance to the flag.
    But first, we'll be led in prayer by Bishop Larry Brandon 
of the Praise Temple Full Gospel Baptist Cathedral.
    [Prayer.]
    Thank you, Bishop, so much.
    And now we'll be led in the Pledge of Allegiance to the 
flag by Harold Coats, and Harold is accompanied by Ray Urban, a 
distinguished World War II veteran.
    [Pledge of Allegiance.]
    Thank you so much, Harold and Ray. Everybody be seated.
    Welcome again. I also want to recognize and thank for their 
service State Representative Henry Burns who is with us; BESE 
member Jane Smith; and Bossier Parish Police Juror Doug Rimmer. 
Thank you all so much for your service. Thank you for being 
with us.
    As I said, this is both a Town Hall Meeting--and there will 
certainly be opportunity to hear from you--and a field hearing 
of the Senate Small Business Committee. I'm the brand new chair 
of the Senate Small Business Committee, and I wanted to bring 
the committee to Louisiana and focus on important small 
business issues here.
    John, do you have any introductory comments?
    [The prepared statement of Chairman Vitter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
STATEMENT OF JOHN FLEMING, A U.S. REPRESENTATIVE FROM LOUISIANA

    Mr. Fleming. Thanks, David, and thanks for having this Town 
Hall and hearing and, seemingly, on two unrelated subjects, one 
being education and then, of course, the other is 
entrepreneurship. But, in fact, they're closely aligned and 
closely connected.
    For those of you who may not know my background, I was, of 
course, a physician for a number of years in Minden. But along 
the way, I fell into the entrepreneurship lane as well, opening 
up Subway restaurants here in Shreveport, Bossier, and the 
area, and then getting into other things such as real estate.
    And, you know, I learned very quickly when I opened up my 
practice in 1982 that I didn't know a single thing about 
business. I didn't know a debit from a credit, and I had to get 
on a very sharp learning curve if I was to survive as a 
physician.
    But I really found all of the unique values that we have in 
a free economy, that we have in this society, and began to 
apply it again in small business and entrepreneurship and 
learned that we can be very successful as a nation--in fact, 
most jobs come from small businesses. The problem is that we're 
all on a learning curve, and it's necessary for us not only to 
understand how the economy works--and that's where our 
education comes in--but also we must have a skill.
    Whether you start with an education and then work into 
business or a skill and into a business, either way, both are 
essential. And one of the other surprising things that I've 
found is that we've reached a point in time now where we have a 
lot of people with college educations, but they can't find a 
job. But we have a huge demand for skilled jobs, and we can't 
meet that demand. So that's really the modern day challenge, 
and I'm sure we're going to talk about how we match these two 
together.
    So, once again, thank you, and I look forward to working 
with our panel and Senator Vitter. I yield back.
    Chairman Vitter. Thank you, John. John, as you said, these 
topics are closely related, and one of our big challenges in 
Louisiana is to make sure we give our young people the 
education, the training, and the skill sets they need to 
benefit from good jobs.
    You know, the good news is we do have a lot of those good 
jobs coming our way in Louisiana--about $80 billion in new and 
expanding economic development in the state over the next 
several years. That's great, but right now, as it stands, we 
will be unable to meet those workforce demands.
    A lot of these companies will have to bring folks in from 
out of state, and not put young Louisianans to work. We need to 
change that and maximize this opportunity for young 
Louisianans.
    Right now, our Louisiana workforce is about 2.3 million 
working adults. Over a million of those have not obtained a 
college degree or postsecondary credentials, and an another 
600,000 have not obtained a high school diploma.
    As today's industries rely more and more heavily on 
technology, we need to fix that, and we need to give these 
folks the training they need. That doesn't necessarily mean 
college, but the higher ed, vo-tech, or community college or 
skills training they need.
    Now, Louisiana has taken several steps to alter the 
landscape of workforce development over the last few years, 
both at the high school and post-high school level. High school 
students now have greater access to career courses through dual 
enrollment programs, partnerships with outside businesses, et 
cetera. There's a Jump Start program that's very important in 
high school.
    But we can go further. In addition, the state legislature 
established the WISE Act, a $40 million workforce incentive 
initiative that has also spurred partnerships between 
industries and institutes of higher education. However, that is 
in jeopardy as well with proposed budget cuts at the state 
level. So we need to fix that.
    Nationally, our current system of higher education really, 
in my opinion, stifles innovation in a lot of cases. It limits 
schools' ability to quickly respond to the needs of businesses 
and employers. It limits students' ability to access financial 
aid in innovative ways. So we certainly need to address that at 
the national level.
    Much of the debate in Congress surrounding higher education 
focuses solely on the cost of traditional, four-year 
institutions, colleges and universities. I think we need to 
expand that focus because a lot of the prime opportunities in 
places like Louisiana is skills training. So we need to allow 
states to accredit and access financial aid more easily and 
enable some of the 1.63 million working adults in Louisiana 
with the skills training they need to get better jobs that are 
coming our way.
    I look forward to our witnesses today. As I suggested a 
minute ago, they are directly involved in this issue of 
improving our system of skills training, and preparing 
Louisianans for the workforce.
    Well, let's move to our panel. Again, our primary focus 
today is how innovative education systems can better prepare 
students to enter the workforce. We have four great panelists 
who are all involved in that work in very important ways. I'm 
going to introduce all four, and then they'll speak briefly in 
turn, and we'll have a conversation with them following that.
    First will be Al Bargas, who is a lifetime resident of 
Baton Rouge and a graduate of LSU with a degree in business 
administration. A former CPA, Al worked in the public 
accounting area for several years before pursuing a career in 
the construction equipment industry, where he served in various 
capacities for 30 years.
    He is very involved in Associated Builders and Contractors 
and is the President of the Pelican Chapter. He became that in 
2002. ABC, Associated Builders and Contractors, has several 
skill training programs that they are very involved in.
    Next will be Sandra Partain, the Dean of Technology, 
Engineering, and Math, who has worked for the Bossier Parish 
Community College for seven years. Before BPCC, she taught at 
the LSU Health Sciences Center, Shreveport, the School of 
Allied Health Professionals, for about eight years.
    After Sandra will be David Helveston. He serves as the Vice 
President for Workforce, Career and Technical Education at the 
Louisiana Community and Technical College System. Previously, 
David served as the Director of the Louisiana Workforce 
Investment Council and the Director of Policy and Strategic 
Initiatives for the Louisiana Workforce Commission.
    And finally will be Gayle Flowers, Director of Career, 
Adult, and Alternative Education for Caddo Parish Public 
Schools. She has served in this position since 2006 and leads 
the Career and Technical Education Program for the school 
district. She established Northwest Louisiana's nine-district 
regional Jump Start Partnership. We were talking about Jump 
Start earlier, which is very, very important. She previously 
served for 14 years as principal of the nationally recognized 
Caddo Career and Technology Center, the apex of Caddo's Career 
and Technical Education Program.
    Thank you all very much for being a key part of this 
program, and we'll get started with Al Bargas.
    Al.

    STATEMENT OF ALVIN BARGAS, PRESIDENT, PELICAN CHAPTER, 
              ASSOCIATED BUILDERS AND CONTRACTORS

    Mr. Bargas. Chairman Vitter, Congressman Fleming, members 
of the Senate Committee on Small Business and Entrepreneurship 
and the other honored guests in the audience, good morning, and 
thank you for allowing me the opportunity to testify before you 
today.
    As the senator mentioned, my name is Alvin Bargas, and I 
serve as the President of the Pelican Chapter of Associated 
Builders and Contractors located in Baton Rouge. The Pelican 
Chapter's volunteer leaders are committed to training a safe, 
highly skilled construction workforce.
    The Chapter offers construction craft education programs in 
Baton Rouge and Lake Charles training centers and 19-plus 
satellite locations to currently more than 2,100 students. 
Since 1983, ABC member contractors and industry-related 
partners have privately funded more than $56,000,000 in 
industrial craft training.
    ABC has partnership agreements with 53 high schools in 23 
school districts. This includes 84 classes with more than 1,200 
students per year in high-demand crafts such as welding and 
pipefitting. We also engage high school students through craft 
competitions and a three-day Build Your Future event. In 
addition to direct funding of these programs, ABC members also 
donate more than $60,000 a year in materials and equipment and 
volunteer over 1,800 hours annually in the classrooms.
    Louisiana's construction industry now faces a work force 
challenge. Project announcements in excess of $60 billion in 
new construction, plus the expansion of existing facilities, is 
driving the need for skilled workers. Retirements and career 
changes will drive the demand for an additional 51,000 workers.
    Even with an exploding demand for a skilled construction 
workforce, public high schools continue to focus on four-year 
college prep curriculums. While this pathway is important, 
students should be offered opportunities to learn skills that 
prepare them for high-paying, in-demand careers that do not 
require a bachelor's degree. That said, the expansion of Career 
and Technical Education or CTE options should never come at the 
expense of academic rigor or quality instruction and must 
clearly align with industry workforce needs and postsecondary 
credentials.
    ABC and its partners are leading the challenge to align our 
education system with future workforce demands. Construction 
industry and education stakeholders established a Craft 
Workforce Development Task force, which created a strategic 
roadmap entitled ``Building Louisiana's Craft Workforce.'' The 
Task force has ensured that an industry recognized and 
academically rigorous construction CTE curriculum will be 
consistently delivered across Louisiana's training programs.
    The Louisiana Community and Technical College System, or 
LCTCS, as we know it, and the Louisiana Department of Education 
have adopted the curriculum of the National Center for 
Construction Education and Research, or NCCER. This curriculum 
blends classroom instruction with hands-on training and 
articulates to postsecondary credential and community college 
programs.
    Training providers are focused on leveraging capacity at 
high schools as well as leveraging assets such as facilities 
and funding with private providers. Training delivery includes 
compressed schedules for industry-based certifications as well 
as evening and weekend class alternatives.
    The Louisiana state government has also enacted innovative 
education reforms, such as Supplemental Course Academy, or SCA, 
as you may know it. This program gives high school students the 
option to choose from a diverse range of courses, including 
core academics, college preparation, and career training.
    Through SCA, students can customize their learning path by 
gaining industry-based certifications, in addition to earning 
high school and college credit. The program provides all 
Louisiana students equal access to career training and a head 
start on a postsecondary credential and ultimately a career. So 
a student doesn't have to take the course at his school. 
Charter school students can come to ABC or come to the LCTCS 
location and take those courses.
    SCA can serve as a catalyst to recruit and train capable 
young people to either step into higher wage construction jobs 
or continue on to complete postsecondary courses. To achieve 
this, SCA provides that students, parents, and school 
counselors collaborate to make sure students register in 
courses that are appropriate for their age, their interests, 
and their capabilities.
    As an SCA provider, ABC is providing electrical, 
pipefitting, millwright, and welding to over 138 students 
currently. Our challenge ahead is to focus our current 
resources to support CTE programs, such as SCA and JumpStart, 
for in-demand industries that provide students with innovative 
and flexible training options that stretch from high school to 
advanced postsecondary credentials. This includes promoting new 
and existing partnerships between industries, government, and 
education providers while establishing clear accountability 
indicators and easily understood measures of success.
    On behalf of the Associated Builders and Contractors 
Pelican Chapter, I'd like to thank the committee for holding 
today's hearing on this important subject.
    Thank you.
    [The prepared statement of Mr. Bargas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Thank you very much, Al. Thanks for all 
the continuing work of ABC.
    Next is Sandra Partain, Dean at BPCC.
    Sandra.

 STATEMENT OF SANDRA PARTAIN, DEAN OF TECHNOLOGY, ENGINEERING, 
           AND MATH, BOSSIER PARISH COMMUNITY COLLEGE

    Ms. Partain. Chairman Vitter, Congressman Fleming, and 
members of the committee, thank you for the opportunity to 
speak with you today about the efforts Bossier Parish Community 
College has made to improve our education systems and better 
prepare our students to enter the workforce.
    As Dean of the Division of Technology, Engineering, and 
Mathematics, I am fortunate to have a team of innovative 
faculty and staff who don't mind tackling challenges as they 
champion for our students. Ranked as one of the fastest growing 
community colleges in the United States by Community College 
Week, Bossier Parish Community College is faced with a growing 
number of students each semester who believe that a two-year 
associate's degree is the best plan for their future.
    Our faculty and staff have been tasked to do more with 
less. Innovation is the best solution for a school reaching to 
deliver the best education to more students each year with 
depreciating resources.
    Our division is home to three U.S. Department of Labor 
Trade Adjustment Assistance Community College and Career 
Training, TAACCCT, grants. We are using these funds to 
transform delivery methods and accelerate credential attainment 
in the cyber technology, advanced manufacturing, and advanced 
welding career pathways. These programs will serve more than 
1,900 TAA-eligible workers, veterans, and other individuals in 
the northwest region of Louisiana.
    Research shows that sector initiatives and career pathways 
work when training in technical occupations at an accelerated 
rate. Participants in sector-focused training programs earned 
significantly more; were more likely to work; and, in the 
second year, worked more consistently. They were working more 
hours and earning more hourly wages and were significantly more 
likely to receive benefits.
    By aligning programs in a sector-based design, credential 
attainment and articulation are accelerated. One significant 
obstacle for many nontraditional, adult learners is the 
intimidation of returning to school with the complex 
programming often associated with obtaining a college degree.
    To help remedy this situation, our division has 
incorporated career coach advisors in many of our technical 
degree pathways. A recent study demonstrates that intensive 
coaching increases retention graduation rates by 10 percent to 
15 percent and is found to be cost effective when compared to 
other traditional retention strategies, such as financial aid.
    These coaches are available to take students at the point 
of admission and help them navigate career pathways by advising 
on course schedules and other wraparound services like 
completing administrative paperwork and locating tutoring and 
other services on campus. For our division, this is now 
considered a best practice for programs in technical career 
education.
    Finally, working directly with industry has become critical 
to the success of our students being placed directly into the 
workforce after graduation. Industry-based credential 
attainment and direct contact with employers have provided job 
placement opportunities for our graduates.
    Our TAACCCT3 award focuses on growing needs in the advanced 
manufacturing and mechatronics areas. It's a new day in 
manufacturing. Today's employers need employees with advanced 
skills. They need problem solvers and trouble shooters.
    BPCC is excited to work with the Louisiana Economic 
Development Fast Start program to bring a state-recognized, 
industry certification that is rising to meet our area industry 
needs in advanced manufacturing. The program consists of four 
college courses that can be completed in one semester, or 16 
weeks, and covers the essential skills needed in the modern 
manufacturing environment.
    The short-term program is ideal for nontraditional students 
who want to work in the manufacturing industry, but who require 
training in this area. Through the TAACCCT3 award, the rollout 
of this program has been a team approach to both implementation 
and job placement.
    This award has funded personnel within my division who meet 
regularly with area manufacturers. Most of these manufacturers 
are small businesses and employ 50 people or less. Other large 
manufacturers, like Benteler Steel/Tube, have moved into our 
area and will employ more than 500 people. It is critical that 
BPCC continues to have a program that meets the needs of 
industry as a whole rather than meeting the needs of one or two 
individual employers.
    Working directly with employers is key to the program's 
success in placing students. More than 10 area manufacturers 
are working with the TAACCCT3 team to drive curriculum in this 
area and hire students upon graduation. These students meet 
regularly with program directors and faculty to give input on 
the skills being taught in this program.
    Furthermore, these employers come to campus several times a 
year and participate in a round-robin interview day where each 
of our graduating students gets a 15-minute opportunity to 
interview with each employer. In the year that this program has 
been in place, more than 80 students have been retrained, over 
800 interviews have been conducted, and to date 30 graduates 
have reentered the workforce earning a better living wage.
    This innovative program is meeting the needs of all of our 
students by working directly with them on an individual basis 
and working directly with business and industry in both 
curriculum and credential attainment. This process, including 
job placement, has become a best practice for our division and 
our school. It is important that higher education continues to 
work with industry leaders to make sure our students graduate 
with the credentials and skills necessary to be employed.
    Looking toward the future, career and technical education 
will see a resurgence in popularity. BPCC will continue to work 
hand-in-hand with employers to make sure that students are 
trained for high-demand, high-wage workforce opportunities. Our 
future goals include the establishment of a flagship weld shop 
in Northwest Louisiana with the TAACCCT4 and state grant awards 
to add another option for our students.
    Traditional academics is being merged with workforce 
development to create a new age in education valuing career 
technical education as a marketable trade skill necessary for 
our students to prosper in Louisiana.
    Thank you again for the opportunity to appear before you 
today. I am happy to answer any questions you may have 
regarding our programs at BPCC.
    [The prepared statement of Ms. Partain follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Thank you very much, Sandra.
    Next is David Helveston with the Louisiana Community and 
Technical College System of which BPCC is a part, of course.
    David.

  STATEMENT OF DAVID HELVESTON, VICE PRESIDENT FOR WORKFORCE, 
    CAREER AND TECHNICAL EDUCATION, LOUISIANA COMMUNITY AND 
                    TECHNICAL COLLEGE SYSTEM

    Mr. Helveston. Thank you, Chairman Vitter and Congressman 
Fleming, for the opportunity to speak today, and guests in the 
audience. I am David Helveston. I am the Vice President for 
Workforce, Career and Technical Education at the Louisiana 
Community and Technical College System, or LCTCS.
    As we've discussed today, Louisiana is in the middle of a 
boom in the petrochemical industry. Over the next few years, 
advanced manufacturing, industrial construction, and IT is 
projected to experience unprecedented growth. With investments 
in facilities and new expansions nearing $100 billion, the 
impacts will be felt across Louisiana.They'll be felt by large 
corporations. They'll be felt by small businesses and 
entrepreneurs. They'll be felt by the individuals out there 
struggling to make a better life for themselves.
    With the forecast demand out there for skilled labor, it 
shows that anyone in Louisiana who obtains the necessary skills 
will have not just a job, but a life-long career and a clear 
path to the middle class. Occupational forecasts also show that 
most of these job openings in Louisiana in the coming years 
will require more than a high school diploma but less than a 
four-year degree.
    It is essential that Louisiana's higher education system 
delivers market-responsive training to meet employers' demand 
and prepare students to enter directly into the workforce. To 
produce those graduates who transition seamlessly into the 
workforce, we have to align our program offerings to match 
occupational outlooks, and we must partner closely with 
business and industry to develop the curricula that meets their 
specific needs for workers.
    At LCTCS, one of our system goals is to quadruple the 
number of partnerships we have with business and industry by 
the year 2020. A great example of one of those partnerships is 
right here at BPCC between Benteler Steel and other area 
manufacturers and the community college.
    At the Center for Advanced Manufacturing and Engineering on 
BPCC's campus, students can earn their Certification for 
Manufacturing, which is an industry-based certification and an 
industry-based curriculum that was developed by Louisiana 
Economic Development and those manufacturing partners. Students 
will train on the real equipment that they will work on at the 
job. They will be ready from day one for their employment, and 
the manufacturing employers in the area will have access to a 
highly skilled pool of workers throughout the area.
    Partnerships like this one at BPCC are happening across the 
state amongst various industries. Our partnership with 
Associated Builders and Contractors to expand training capacity 
for the skilled crafts by sharing facilities and instructors is 
another public-private partnership that is producing real 
results at a number of locations. We are also developing 
partnerships with local businesses to encourage nontraditional 
students to consider nontraditional careers.
    For example, in Baton Rouge at the Baton Rouge Community 
College, we're working with Dow Chemical for a Women in Welding 
program. This program offers unemployed or underemployed women 
the opportunity to get into welding. There is a scholarship 
that provides mentoring from experienced welding women and 
provides direct connections to employers at the end of the 
program. It is partnerships such as these with business and 
industry that are key to our success in Louisiana in higher 
education.
    Louisiana's budget has been in the news a great deal 
lately, particularly as it relates to higher education. I would 
say that regardless of potential cuts, it is our job at the 
Louisiana Community and Technical College System to have a 
laser-like focus on producing skilled graduates prepared for 
the high-wage, high-demand careers of tomorrow and driving that 
further economic growth. This is our obligation to our 
students, to our employers, to our taxpayers.
    By aligning our programs to meet the needs of local 
business and industry, our community and technical colleges are 
part of the budget solution. It may be somewhat over-
simplified, but our tax base as a state increases when the 
unemployed, the underemployed, and those on government 
assistance have the skills they need to enter the workforce and 
become prosperous taxpayers.
    At the federal level, we have heard the president's 
proposal of free community college for all. While we understand 
and appreciate the recognition--the discussions that are 
happening at the national level--we understand there is a lot 
that goes into such a proposal, a lot of complicated issues to 
sort out.
    I would say a more modest proposal and one that Senator 
Vitter referenced earlier is greater access to financial aid. 
An adjustment to the Pell grant system where short-term 
training, reducing the clock-hour requirements on Pell grants, 
would go a long way in Louisiana.
    For example, a welding program, a rigorous 12-week welding 
program, full time, where a student comes out with an industry-
based certification that employers are demanding--nearly 
certain employment--is not eligible for that full Pell grant 
that an academic program might be. This full time, compressed 
training leads directly to a high-wage career, yet that 
financial barrier exists for many of our state's unemployed and 
underemployed.
    While discussions surrounding higher education and 
workforce will continue at the state and federal level, 
Louisiana's community and technical colleges remain committed 
to partnering closely with business and industry to produce 
more graduates prepared for high-wage, high-demand jobs here in 
Louisiana.
    Senator Vitter, Congressman Fleming, we look forward to 
working with you and your staffs in the future. Thank you for 
the opportunity to speak.
    [The prepared statement of Mr. Helveston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Thank you very much, David.
    Our final witness will be Gayle Flowers with the Caddo 
Parrish Public School System.
    Gayle.

  STATEMENT OF GAYLE FLOWERS, DIRECTOR OF CAREER, ADULT, AND 
        ALTERNATIVE EDUCATION, CADDO PARISH SCHOOL BOARD

    Ms. Flowers. Thank you. Chairman Vitter, Representative 
Fleming, members of the Senate Committee on Small Business and 
Entrepreneurship, and our honored guests who are here, good 
morning. Thank you for this opportunity. As mentioned, I'm 
Gayle Flowers. I've been Director of Career, Adult, and 
Alternative Education in Caddo since 2006.
    Previously, I served as principal for 14 years at Caddo 
Career and Technology Center. While there, I implemented the 
first high school industry-valued certifications in the state. 
We started with AYES, which is ASE's high school program for 
the automotive area. Then we added NCCER and construction, HVAC 
excellence, and EPA in heating, air conditioning, and 
ventilation.
    It really became a competitive component of our school's 
culture for teachers to work with their advisory councils to 
identify and add industry certifications. Today, we offer 18 
industry certifications, and we're working to add more.
    Because of my background and experience leading this 
effort, I was recruited to serve on the Louisiana Workforce 
Commission's IBC Committee. I'm also honored to serve as a 
leader for the Northwest Louisiana Regional Jump Start Team, a 
partnership of industry leaders, small business people, 
economic development, workforce development experts, and both 
K-12 and postsecondary educators.
    I want to recognize one of our members in the audience, 
Ricky Hall with Hall Builders. We're glad to have you here.
    We have a growing number of Northwest Louisiana 
stakeholders who are serving on our Regional Jump Start Team. 
In education, we have nine different school districts, 
Bienville, Bossier, Caddo, Claiborne, Desoto, Natchitoches, Red 
River, Sabine, and Webster. Postsecondary, we're working with 
Southern University Shreveport, Bossier Parish Community 
College, North Louisiana Technical Colleges, LSU Shreveport, 
and Northwestern State University.
    We have a very broad and growing number of employer 
partners that are working with us. I won't bore you by reading 
all of them, but I'm very glad to make that list available to 
any of you that are interested.
    We also have community stakeholders, the Community 
Foundation, a number of Chambers of Commerce, Shreveport, 
Desoto, Natchitoches, Providence House, the Louisiana Workforce 
Commission, the City of Shreveport, North Louisiana Economic 
Partnership, Cyber Innovation Center, to name a few. Our 
employer partners are a significant and driving force, and as 
we started our Jump Start partnership, we wanted to make sure 
that they made up 50 percent or more of our membership, because 
we want them to drive our efforts.
    The Northwest Louisiana Regional Jump Start Team received a 
2014 competitive grant to develop a suite of career development 
courses that students in our region are now taking in middle 
and high school. These courses enable them to learn about a 
wide range of career opportunities, develop study skills to 
succeed in high school and beyond, create a life plan for 
themselves, and at the end of high school master those skills 
that are needed to secure employment, engage in lifelong 
learning, and become excellent employees, team members, and 
workplace leaders.
    After a thorough review of our labor market data in this 
region, looking at those trends as well, we're focusing on four 
primary business sectors that have been mentioned previously: 
manufacturing, construction, healthcare, and transportation. 
And we added two others that have also been mentioned here 
today: information technology, because it cuts across all types 
of industries, and energy, because even though we have ups and 
downs, it's been a backbone historically of our region.
    Our Regional Jump Start Team is committed to continuing to 
develop, implement, and align innovative curricula that teach 
our students key work-related skills and help them attain 
industry--not just based, but valued certifications. We make 
this commitment on behalf of all students, including those with 
disabilities, because we firmly believe that there's a pathway 
for every student.
    That's one thing that I am very proud of that we have--and 
we have been able to offer to the state--is an awareness of 
some of those certifications that are more accessible for 
students.
    Our Northwest Louisiana Regional Jump Start Team won a 
second competitive grant for 2015, forming a regional workplace 
experience exchange where high schools and employers are coming 
together to develop a wide variety of workplace experiences 
that develop our students beyond the classroom: workplace 
visits, industry speakers in classrooms, internships and more.
    Most importantly, we're focused on creating a maximum 
number of teacher externships, where our teachers can work for 
a week and counselors for a day during the summer in small and 
large businesses to learn current industry best practices. 
These externships help our teachers, both career technical 
teachers and academic teachers and counselors, to better relate 
what students are learning with what students need to learn to 
become successful in the workplace.
    In addition to being Jump Start leaders, our Regional Team 
is dedicated to working with young adults who are underemployed 
or unemployed. We will work with these young people to get them 
training and opportunities through a variety of arenas in our 
region so that they can find career opportunities and become 
productive adults.
    In Northwest Louisiana, we're expanding career and 
technical student organizations, also known as CTSOs, as apart 
of our student career preparation. Through CTSOs, students 
learn and practice leadership, teamwork, and communication 
skills valued by employers.
    We're also dedicated to investing in our teachers to help 
them develop the expertise needed to teach and guide our 
students as they continue their individual journeys to college 
and, most importantly, a satisfying career.
    Caddo Parish Public Schools and the Northwest Louisiana 
Regional Jump Start Team are both dedicated to innovation. 
Going before BESE in March are 10 graduation pathways that we 
have developed, focused on workplace safety and industry 
credentials, like an electrician's helper, that are clearly 
relevant to helping small businesses succeed.
    These pathways include four specifically designed for 
students with disabilities covered by Act 833. We are confident 
that these pathways will not only be of benefit to students 
across our region and state, but will provide a pool of 
qualified, trained, and motivated young people to the small 
businesses of our region. We're currently collaborating with 
the Department of Education and other regional teams across the 
state in developing a micro-enterprise graduation pathway 
specifically designed to provide students with skills and 
credentials needed to start, work in, and lead small 
businesses.
    I come here today as part of a regional team dedicated to 
innovation and entrepreneurialism. Our goal is to help our 
region's employers succeed, which we know will raise our whole 
region's standard of living and, by definition, help our 
students succeed. We stand ready to contribute to the 
conversation about innovation and entrepreneurialism in any way 
that we can and to support innovation in both industry and 
education.
    Again, I thank you for the opportunity to testify here 
today and to let me share my excitement about Jump Start and 
high-quality career and technical education with you.
    [The prepared statement of Ms. Flowers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Vitter. Thank you very much, Gayle. Thanks for 
your testimony. Thanks for your leadership.
    Now we're going to have a discussion about these issues, 
and I'll kick it off and then throw it to John. Let me start 
with David.
    It's obvious from all of the testimony that we're on the 
right path, generally, in Louisiana, and we're partnering with 
businesses and we're developing very practical training 
programs better than ever before. But a lot of the constraints, 
including some you mentioned, are at the federal level, I mean, 
things like traditional Pell grants that are part of this bias 
that I talked about awhile ago toward four-year institutions. 
What are the top one or two or three things John and I should 
fight to change at the federal level to create more flexibility 
and more opportunity for this skills training here in 
Louisiana?
    Mr. Helveston. Well, I mean, I guess you could go a lot of 
ways on that. I pick out Pell, specifically, in access to 
financial aid because it's an easy one to bite off, I think. 
It's something--you know, a 600 clock-hour requirement for 
Pell. We're making programs longer when employers want them 
shorter. They want the worker next week.
    Chairman Vitter. So you're actually artificially 
lengthening some programs----
    Mr. Helveston. Correct.
    The Chairman [continuing]. Because of that requirement of 
Pell.
    Mr. Helveston. Yes.
    Chairman Vitter. Even though the real world is telling you 
to do the opposite.
    Mr. Helveston. Correct. We're embedding multiple industry-
based certifications to make it longer. So that would be one 
tweak that should be relatively simple to make, I would think.
    Chairman Vitter. Al, do you want to jump in?
    Anybody else want to add to the list?
    Mr. Bargas. We don't need to expand the funding of Pell, 
necessarily, but we do need to expand the access to technical 
education. It's just not conducive to technical education, as 
David talked about.
    Chairman Vitter. Right.
    Mr. Bargas. So we don't want more money. We just want to 
open it up to people who want to be welders and pipe fitters or 
nurses or----
    Chairman Vitter. Right. And, in fact, to the extent some of 
those folks are going into a four-year English degree, we'll 
save money, and we'll do better by them.
    Mr. Bargas. Many of them take the college path because 
that's the only way they can get a grant, and they really don't 
want to go to college, and they're not going to be successful.
    Chairman Vitter. Right.
    Ms. Flowers. And I would say that because of that, when I 
was at Caddo Career and Technology Center, we had folks from 
our community that formed a foundation, and they offered 
competitive scholarships to our students. This will be our 20th 
year. They raise about $60,000 a year to help students continue 
their education wherever they deem appropriate. And that's a 
community effort with no federal support, because of that need, 
and Pell grants would help change that.
    Chairman Vitter. Right. Sandra, any addition to the list?
    Ms. Partain. I agree with what they've said so far. I 
really would also encourage you to, at our state level, look at 
the completion rate. We're actually penalized as a community 
college when we have someone complete a shorter degree versus 
the longer degree, whereas the employers are actually telling 
us to give them shorter certificate programs so they can go 
right to work. But then as an institution, we're penalized 
because they didn't complete the associate degree, even though 
they were actually employed.
    Chairman Vitter. Right. Yes, it's obviously different if 
somebody leaves a program because they got a good job versus 
flunking out or dropping out.
    John.
    Mr. Fleming. Yes, great information. I want to first of all 
thank the panel for being here today, and your testimony is 
very valuable and most enlightening. My first question is for 
Sandra.
    In your written testimony, you discussed the importance of 
the BPCC programs collaborating with local industries to ensure 
students are fully trained and equipped as skilled workers so 
that they're able to move seamlessly from the classroom to a 
job.
    Now, several months ago, I went out and visited with 
Benteler Steel--very impressive, state-of-the art. In fact, 
they told me it is the most modern advanced steel piping 
manufacturer in the world. And the bottom line was that they 
came here because energy is cheap. Otherwise, they would still 
be in Germany.
    So we are happy that Germany has bought into this idea of 
driving energy costs up. We're just trying to stop that over 
here so we can get all of those jobs. But they tell me that 
they typically send employees, many of them, back to Germany 
for nine months of training. But they would like to partner 
with us to train them here so they don't have to do that.
    So use that as an example and any others where we have this 
smooth, seamless transition from education to job.
    Ms. Partain. Well, that relationship we have with Benteler 
Steel is a good example of that. We're actually continuing to 
work to improve that relationship even further. Our TAACCCT4 
funding and some of the other state funding that we received is 
to kind of expand our apprenticeship possibilities. And one of 
the flagship philosophies of Germany is that they support 
apprenticeships very strongly. So we look forward to even being 
able to place more students with Benteler.
    But we are trying to plug into what the philosophy is of a 
number of companies. The Computer Science Corporation is also 
one of the companies that we work very closely with to, again, 
align what we are currently doing in developing curriculum and 
in determining which industry-based certifications we should 
pursue so that when those students have completed their 
training, they will be employed without any issues.
    Mr. Fleming. And for you and the rest of the panel, doesn't 
this require a paradigm change in education? Typically, we form 
fit our education curriculum to a specific degree and knowledge 
base, and then they have to go out and somehow put a square peg 
in a round hole in job. Doesn't this make more sense to form 
fit exactly the tools they need so when they finish, it slides 
right into a job which is high paying?
    Ms. Partain. We do start with the end in mind now, which is 
not that far from--my personal experience is in healthcare, and 
you wouldn't train physicians with just arbitrary theory if it 
wasn't something they actually could apply. So we just 
basically take that same philosophy and apply it to all 
technical education at BPCC.
    Chairman Vitter. Great.
    Gayle, you talked a lot about Jump Start. You're very 
involved in that, obviously. And, again, to remind everybody, 
Jump Start is the program that's pretty new based in high 
schools to highlight and develop students' interest in skill 
training opportunities.
    Obviously, here in this region, it's pretty developed, as 
you have described. How would you honestly rate Jump Start 
statewide, and how can we get it to the next level statewide?
    Ms. Flowers. I would say that, statewide, we're in our 
infancy with Jump Start because it's in a four-year transition 
period from areas of concentration to Jump Start pathways. The 
first pathways were approved by BESE in December. We'll have 
another round of pathways approved in March, and I see that as 
a continuing process as we grow in that direction.
    But we've hit the ground running. There are a number of 
things that we have been able to do immediately. The grants 
that we have received are small. When you're talking about the 
large partnership that I mentioned, we received $75,000 last 
year and $75,000 this year. So it doesn't go very far, but we 
have worked hard to leverage that so that it has maximum 
impact.
    So I would look at ways to fund and then ways to remove 
bureaucracy. One thing that I would encourage strongly is 
looking at career tech ed courses that have rigorous academic 
content and giving credit for both academic and career 
technical in that course.
    I'll give an example of welding--a lot of geometry in 
welding, and I can give example after example--healthcare--I 
know, Sandra, you could help me there. But there are other 
states in our nation that give both academic and career 
technical credit for courses. And if we're talking about 
accelerating a student's opportunity for industry-valued 
certifications, that would really open up their high school 
schedule a great deal.
    Chairman Vitter. So to follow up on that, Gayle, say if a 
high school student is doing some welding work or courses, 
right now in Louisiana, what credit does he or she get and 
what----
    Ms. Flowers. They get an elective credit.
    Chairman Vitter. So it's limited to that.
    Ms. Flowers. Typically, in a high school student's 
schedule, they have room for eight, maybe 10 elective credits 
at the most. So if you're trying to create any kind of depth of 
knowledge in a career field, it's possible, but it takes a lot 
of planning and coaching with students and parents to help them 
understand the potential.
    Chairman Vitter. Okay. Great point.
    John.
    Mr. Fleming. Just to kind of follow up on what we're 
talking about--Jump Start and other programs--how are you 
working with the K through 12s, the local school boards? How 
are you transitioning there? We've been talking about 
transitioning to the employers and the final job destination. 
But what about from the schools, the basic school----
    Ms. Flowers. The employers are actually easier to work with 
sometimes than the education system, because you have that huge 
shift in paradigm that you mentioned earlier. But we're 
focusing with counselors, teachers, and then educating at every 
level.
    The externships really help change that paradigm quickly 
and move it faster. And with our $75,000 that we received last 
year, we really focused in on those externships and getting 
teachers out into work places to see best practices to help 
shift and accelerate that change of understanding.
    Mr. Fleming. Al, did you want to respond?
    Mr. Bargas. Yes. We work real hard with the high schools, 
and we're blessed. We've got a couple of guys that run our 
training centers. One is a past superintendent of education for 
Ascension Parish, and he has 30-plus years of experience. So 
he's quite well versed in public education and knows a lot of 
folks. We just go from district to district, and, as Gayle 
mentioned, we visit with the high school principals.
    First, you have to find a school that has the facilities. 
We've helped build out a number of facilities to do welding and 
electrical labs and stuff like that. But you've got to search 
through the districts and find the schools that have the 
physical assets, the welding labs, the electrical labs, or 
what-not, to do those programs. We try to put an industry 
professional, someone--a journeyman--out of the different 
crafts into that school and start a high school program.
    The other thing I wanted to mention--the Supplemental 
Course Academy. If your schools aren't looking at it, or the 
schools where your children go aren't involved with that, 
that's something that's really been a great plus, and there's 
money there to provide this type of training. It just needs to 
be accessed, and I think as time goes by, it'll be more 
successful.
    But a Supplemental Course Academy and just one-on-one 
working with the schools to put people in--whether it be the 
medical profession, the automotive, or construction--help get 
them involved with the schools and develop these programs. We 
have a great network now, and we'll continue to build on that.
    Mr. Fleming. Great.
    Ms. Flowers. I would add that I had mentioned earlier that 
the professional development piece is so very critical and that 
professional development can be the externships, it can be 
upgrading teachers so that they're able to offer those industry 
certifications, which requires them to upgrade their own 
skills, and it's also that career development and career 
counseling component that has to be made much more rigorous and 
much more targeted and focused for students starting at the 
early grade levels.
    When you're talking about elementary school, you're really 
talking about career awareness, and not just those traditional 
areas, focusing in on at least the six that we know are high-
demand, high-wage occupations in our region. Then as you move 
into middle school, you're looking at not only career 
awareness, but some career exploration.
    And then at the high school level, career preparation--
really getting out and starting to form some of those 
experiences, whether it's with a guest speaker, a field trip, a 
short-term or long-term internship, job shadowing, so that they 
know what that workplace is like and they can find their niche 
early and how it fits with their lives and their goals.
    Chairman Vitter. Great. Al, let me follow up with you. 
Associated Builders and Contractors--so that's private sector, 
a private sector training opportunity. For your typical student 
trainee, what's the average cost to them, and how does a 
typical person in that ABC slot finance that? I assume that is 
a big factor in terms of your ability to expand.
    Mr. Bargas. Well, our school is funded by area industries 
in the surrounding areas. Where the school is located--it's by 
the Southwest Louisiana Construction Users Roundtable in the 
Lake Charles area and by the Greater Baton Rouge Industry 
Alliance in the Baton Rouge area. So they help us with the 
funding.
    But the students typically pay $140 a semester for tuition. 
Most of our employers, if they successfully complete that 
semester, will reimburse that. So we collect the money straight 
from the student or we'll get it from our employers. It's very 
inexpensive to the students, and we believe that that's one of 
the keys why we are so busy.
    Our typical training model is we train from 6:00 to 9:00 at 
night two nights a week in all of our courses, and we pretty 
much cover the gamut on construction crafts. We also offer a 
summer daytime training for students coming out of high school, 
especially for the students transitioning from junior to senior 
and senior graduates. We do this at no cost for those students. 
We fund that out of our operating budget.
    And then, of course, we take advantage--we are a provider 
approved by the Supplemental Course Academy. We're approved by 
or licensed by the BESE board.
    So we're able to provide those types of training and 
achieve some of that funding, which, quite frankly, is good to 
get, but it doesn't quite cover your entire cost. So we 
supplement that cost with our private funding. So we're able to 
offer the students coming from high school as well as--and I 
mentioned one of the charter schools. We have 70-something 
students from one of the charter schools, who were in a 
terrible situation because they come from a disadvantaged area 
of Baton Rouge, and so it's been a blessing for those young men 
and young women. They'll finish in welding and pipefitting and 
go on and have great careers.
    Chairman Vitter. So those programs that are at night--
obviously, all of those students are working during the day, or 
at least the huge majority?
    Mr. Bargas. The vast majority. That's correct.
    Chairman Vitter. And $140 a semester is a great deal. 
Obviously, the cost to you is way beyond that. What do you 
think the typical cost is compared to the $140?
    Mr. Bargas. Probably for a welder on a semester, it 
probably runs about $1,250 to $1,300.
    Ms. Flowers. And I'd like to mention that Caddo Career and 
Technology Center is also a Supplemental Course Academy, and we 
did that so that students who are home-schooled, in a private 
school, or a charter school in our region could take advantage 
of those career technical opportunities.
    Chairman Vitter. Right.
    John.
    Mr. Fleming. Gayle, in your testimony, you described a 
four-step program for Northwest Louisiana. Are you 
collaborating with other regions throughout the state on a 
similar Jump Start kind of program?
    Ms. Flowers. Yes. With the grants that have been funded, we 
have partnership meetings and conference calls together. And 
then because I've been a career tech ed director for a number 
of years, there's a strong statewide cooperation and networking 
that we have. So there is a lot of sharing back and forth.
    When we got the grant to work on the career development 
suite of courses, only one other region was funded, and we 
worked independently on that development. But this year, we're 
training together so that we can take the best of each 
development and make it even better and then share that 
throughout the state.
    Mr. Fleming. So I'm hearing cross-pollination between 
different school segments as well as with employers.
    Ms. Flowers. And trying to share those best practices, 
because somebody that's been doing it for a long time will have 
great ideas. Somebody that's just into it might have some fresh 
ideas we haven't thought of. So that is very important, that 
collaboration and sharing.
    Chairman Vitter. Great. We're going to start to wrap up. I 
really want to thank our four witnesses, who are at the heart 
of the program, for being here today. It was a great time 
sacrifice for them and, more importantly, for their ongoing 
work. Let's give them a round of applause.
    [Applause.]
    I also want to thank my co-host and participant today, John 
Fleming. Congressman Fleming and I work together on all sorts 
of issues important to Northwest Louisiana, certainly including 
education and workforce training issues.
    John, thank you for being here very much.
    [Applause.]
    Thanks to you for coming out. And, obviously, I don't want 
this to be an isolated visit. If you have ideas, suggestions, 
questions about what we've talked about today, other small 
business issues, or other issues, in general, please contact 
John and myself. For me, the easiest way is to go to my Senate 
Web site, www.vitter.senate.gov. There's easy email access 
there and all of our phone numbers, including the Shreveport 
office as well.
    And, finally, I want to thank the Louisiana State Exhibit 
Museum for hosting us. This was a great venue for it, and I 
want to thank them.
    John, any closing thoughts?
    Mr. Fleming. David, yes. Once again, I want to thank you 
for hosting this. This is a real Senate subcommittee hearing. 
This is not--or, actually, a full committee hearing--excuse me. 
And, of course, a record is taken back to Washington on this. 
We'll spread this information among our staffers, and it will 
be put to good use.
    We thank you so much again, panelists.
    And I'd like to have an applause for Senator Vitter and all 
the work that he's doing.
    [Applause.]
    Chairman Vitter. Thank you all very much. Have a great rest 
of the day, and we'll stay in touch.
    [Whereupon, at 1:10 p.m., the hearing was adjourned.]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
